App. 1
912 F.3d 445
United States Court of Appeals, Eighth Circuit.
B&B HARDWARE, INC.,
a California Corporation, Plaintiff - Appellant
v.
HARGIS INDUSTRIES, INC., a Texas
Corporation, doing business as East Texas
Fasteners, doing business as Sealtite
Building Fasteners, Defendant - Appellee
East Texas Fasteners, a business
entity of form unknown; Does, 1
through 10, inclusive, Defendants
B&B Hardware, Inc.,
a California Corporation, Plaintiff - Appellee
v.
Hargis Industries, Inc., a Texas
Corporation, doing business as East Texas
Fasteners, doing business as Sealtite
Building Fasteners, Defendant - Appellant
East Texas Fasteners, a business entity of form
unknown; Does, 1 through 10, inclusive, Defendants
No. 17-1570, No. 17-1755
|
Submitted: September 26, 2018
|
Filed: December 21, 2018
|
Rehearing and Rehearing En
Banc Denied February 6, 2019
Appeals from United States District Court for
the Eastern District of Arkansas—Little Rock

App. 2
Attorneys and Law Firms
Counsel who presented argument on behalf of the appellant was Timothy James Cullen, of Little Rock, AR.
Counsel who presented argument on behalf of the
appellee was Colleen E. Roh Sinzdak, of Washington,
DC. The following attorney(s) appeared on the appellee
brief; Trey Yarbrough, of Tyler, TX., Neal Katyal, of
Washington, DC., Alexander Biays Bowerman, of Philadelphia, PA.
Before LOKEN, BENTON, and SHEPHERD, Circuit
Judges.
Opinion
SHEPHERD, Circuit Judge.
B&B Hardware, Inc. appeals the district court’s1
judgment in favor of Hargis Industries, Inc. on B&B’s
claim of trademark infringement and request for an
accounting of profits. Hargis cross-appeals from the
district court’s denial of its motion for fees and costs.
We have jurisdiction pursuant to 28 U.S.C. § 1291. For
the reasons set forth in this opinion, we affirm on all
claims.
I.
Although we relate the circumstances underlying
this case in great detail in our prior opinions concerning these parties, B&B Hardware, Inc. v. Hargis Indus.,
1

The Honorable Brian S. Miller, Chief Judge, United States
District Court for the Eastern District of Arkansas.

App. 3
Inc. (Hargis V), 716 F.3d 1020 (8th Cir. 2013); B&B
Hardware, Inc. v. Hargis Indus., Inc. (Hargis III), 569
F.3d 383 (8th Cir. 2009); B&B Hardware, Inc. v. Hargis
Indus., Inc. (Hargis I), 252 F.3d 1010 (8th Cir. 2001),
Justice Alito has succinctly summarized the factual origins of this case and provides apt commentary:
Petitioner B & B and respondent Hargis both
manufacture metal fasteners. B & B manufactures fasteners for the aerospace industry,
while Hargis manufactures fasteners for use
in the construction trade. Although there are
obvious differences between space shuttles
and A-frame buildings, both aerospace and
construction engineers prefer fasteners that
seal things tightly. Accordingly, both B & B
and Hargis want their wares associated with
tight seals. A feud of nearly two decades has
sprung from this seemingly commonplace set
of facts.
In 1993 B & B registered SEALTIGHT for
“threaded or unthreaded metal fasteners and
other related hardwar[e]; namely, self-sealing
nuts, bolts, screws, rivets and washers, all having a captive o-ring, for use in the aerospace
industry.” In 1996, Hargis sought to register
SEALTITE for “self-piercing and self-drilling
metal screws for use in the manufacture of
metal and post-frame buildings.” B & B opposed Hargis’ registration because, although
the two companies sell different products, it
believes that SEALTITE is confusingly similar to SEALTIGHT.

App. 4
The twists and turns in the SEALTIGHT versus SEALTITE controversy are labyrinthine.
The question whether either of these marks
should be registered, and if so, which one,
has bounced around within the [Patent and
Trademark Office] for about two decades; related infringement litigation has been before
the Eighth Circuit three times; and two separate juries have been empaneled and returned
verdicts. The full story could fill a long, unhappy book.
B&B Hardware, Inc. v. Hargis Indus., Inc. (Hargis VI),
135 S. Ct. 1293, 1301 (2015) (first alteration in original) (citations omitted).
In B&B’s trademark infringement action against
Hargis in May 2000, a jury found that B&B’s “Sealtight” mark was not entitled to protection because it
lacked secondary meaning. We affirmed. Hargis I, 252
F.3d at 1011. In June 2006, B&B filed for incontestability status for its trademark with the Patent and
Trademark Office (PTO). The PTO issued a Notice of
Acknowledgment in September 2006, concluding that
B&B’s affidavit of incontestability met the statutory
requirements. Incontestability provided B&B with a
presumption that its “Sealtight” mark carried secondary meaning. This constituted a significant intervening factual change from the 2000 jury trial, which
resulted in the finding that “Sealtight” was merely descriptive, and B&B could thus escape the collateral estoppel bar that the 2000 jury verdict imposed on the
issue of secondary meaning. See Hargis III, 569 F.3d at
388.

App. 5
Immediately after its 2006 filing for incontestability, B&B brought suit against Hargis again for trademark infringement, unfair competition, trademark
dilution, and false designation of origin. The case currently before us arises out of this second suit. However,
only the period between June 2006, when B&B overcame collateral estoppel by filing for incontestability,
see Dist. Ct. Dkt. 422; see also Hargis III, 569 F.3d
at 388-89, and October 2013, when B&B allowed
its trademark registration to expire and therefore no
longer had statutory rights in that trademark, is at issue here.
The district court initially dismissed B&B’s new
suit on collateral estoppel grounds. B&B Hardware,
Inc. v. Hargis Indus., Inc. (Hargis II), No. 4:06CV01654
SWW, 2007 WL 2711647, at *12-13 (E.D. Ark. Sept. 13,
2007). B&B appealed and this Court reversed and remanded, finding that incontestability was a significant
factual change precluding application of collateral estoppel. Hargis III, 569 F.3d at 389-90. The district court
then conducted a jury trial and the jury found against
B&B on all claims. B&B Hardware, Inc. v. Hargis Indus., Inc. (Hargis IV), 736 F. Supp. 2d 1212, 1214 (E.D.
Ark. 2010). B&B again appealed to this Court, which
upheld the jury’s verdict. Hargis V, 716 F.3d at 1022.
B&B then appealed to the Supreme Court of the
United States, which found that the district court
should have given preclusive effect to a decision of the
Trademark Trial and Appeal Board (TTAB) finding
that there was a likelihood of confusion between “Sealtight” and “Sealtite.” Hargis VI, 135 S. Ct. at 1299. The

App. 6
Supreme Court remanded the case for further proceedings.
We subsequently vacated the district court’s judgment and remanded. B&B Hardware, Inc. v. Hargis Indus., Inc. (Hargis VII), 800 F.3d 427, 427 (8th Cir. 2015)
(per curiam). Following our remand, the case proceeded in the district court on B&B’s claim that Hargis
committed trademark infringement under the Lanham Act, false designation of origin, and unfair competition. B&B sought disgorgement of Hargis’s profits
beginning in June 2006. Hargis counterclaimed for
false advertising and false designation of origin. A fiveday jury trial ensued.
At trial, Hargis argued that B&B obtained its incontestability status through fraud, presenting evidence that B&B failed to inform the PTO about the
2000 jury verdict that B&B’s “Sealtight” mark was
merely descriptive. Hargis also presented evidence
that all of its profits stemmed from its personal relationships with its customers, exemplary customer service, and the quality of its products, rather than the
“Sealtite” name.
At the close of evidence, B&B moved for judgment
as a matter of law on Hargis’s counterclaims but failed
to do so on its own claims. The jury found that Hargis
infringed on B&B’s trademark but did not do so willfully, awarded B&B none of Hargis’s profits, and found
for Hargis on its counterclaims and its affirmative defense of fraud. Based on the jury’s fraud finding, the
district court found that “Sealtight” was not entitled to

App. 7
incontestability status, and that B&B therefore had
not pled an intervening change in circumstances allowing it to relitigate claims raised in the 2000 jury
trial. The district court therefore entered judgment for
Hargis on all claims.
In determining that B&B was not entitled to any
of Hargis’s profits, the district court recognized that,
under 15 U.S.C. § 1117(a), it retained discretion to reduce or increase the jury’s profit award or to award
profits itself. See Masters v. UHS of Del., Inc., 631 F.3d
464, 474-75 (8th Cir. 2011). Rather than basing its ruling solely on the jury’s refusal to award profits, it
treated that refusal as advisory, considering it together
with the six factors used by the Third, Fourth, and
Fifth Circuits in balancing the equities. See, e.g., Synergistic Int’l, LLC v. Korman, 470 F.3d 162, 175 (4th
Cir. 2006). The district court concluded that, because
B&B did not lose sales, Hargis did not represent that
its products were B&B’s products, and Hargis’s infringement was not willful, it would be inequitable to
award B&B any of Hargis’s profits. It therefore refused
to disgorge Hargis of its profits.
Hargis then filed a motion seeking attorneys’ fees,
nontaxable litigation costs, and an injunction as sanctions against B&B. The district court awarded Hargis
taxable litigation costs but otherwise denied Hargis’s
motion, finding that protracted litigation, on its own,
does not make a case an exceptional case justifying feeshifting under the Lanham Act.

App. 8
B&B appeals to this Court, arguing (1) the jury
verdict finding fraud and a lack of willfulness was
clearly erroneous; and (2) the district court abused its
discretion in refusing to disgorge Hargis of its profits.
On cross-appeal, Hargis argues that the district court
abused its discretion in denying Hargis’s motion for
fees and costs.
II.
B&B challenges the jury’s fraud finding, arguing
that the verdict was not supported by sufficient evidence. Because B&B failed to file a Rule 50(b) motion
as to the sufficiency of the evidence at the close of evidence, “our review is strictly limited. We cannot test
the sufficiency of the evidence to support the jury’s verdict beyond application of the ‘plain error’ doctrine in
order to prevent a manifest miscarriage of justice.”
Karjala v. Johns-Manville Prods. Corp., 523 F.2d 155,
157 (8th Cir. 1975) (citations omitted); see also Pulla v.
Amoco Oil Co., 72 F.3d 648, 655 (8th Cir. 1995). “Under
this standard we can only grant [B&B] relief if [we find
error that] would result in a miscarriage of justice if
left uncorrected.” Fin. Holding Corp. v. Garnac Grain
Co., 965 F.2d 591, 595 (8th Cir. 1992) (internal quotation marks omitted) (quoting United States v. Schmidt,
922 F.2d 1365, 1369 (8th Cir. 1991). We find no such
plain error in the jury’s verdict.
Under Section 15 of the Lanham Act, Pub. L. No.
79-489, § 15, 60 Stat. 427, 433-34 (1946) (codified as
amended at 15 U.S.C. § 1065), a registrant of a valid

App. 9
trademark who has continually utilized that trademark for five years after registration may have his
mark declared incontestable. Incontestability provides
“conclusive evidence of the validity of [a] registered
mark . . . and of the registrant’s exclusive right to use
the registered mark in commerce.” 15 U.S.C. § 1115(b).
In order to obtain incontestability, an applicant must
file an affidavit with the PTO declaring that “there has
been no final decision adverse to [his] claim of ownership of such mark . . . or to [his] right to register
the same or to keep the same on the register. . . .” 15
U.S.C. § 1065(1), (3). At least one circuit treats a district court’s finding of mere descriptiveness at summary judgment as such an adverse decision. See
OBX-Stock, Inc. v. Bicast, Inc., 558 F.3d 334, 342-43
(4th Cir. 2009). Failure to disclose an adverse decision
is critical because “the PTO does not examine the merits of a § 15 affidavit, which is entered into PTO records
‘without regard to its substantive sufficiency’ as long
as it is received at the proper time and lacks facial inconsistencies or omissions.” Gutier v. Hugo Boss Trade
Mark Mgmt. GmbH & Co. KG, 555 Fed.Appx. 947,
949 (Fed. Cir. 2014) (quoting 3 J. Thomas McCarthy,
McCarthy on Trademarks and Unfair Competition
§ 19:140 (4th ed. 2013)).
Complying with the Lanham Act’s affidavit requirement is especially important because a defendant
accused of infringing an incontestable trademark
may raise an affirmative defense that “the registration
or the incontestable right to use the mark was obtained fraudulently.” 15 U.S.C. § 1115(b)(1). “[T]he

App. 10
words ‘obtained fraudulently’ comprehend not only the
initial securance of a registration, but also the maintenance thereof, i.e., the securance of continuing rights
of registration, by fraud.” Crown Wallcovering Corp. v.
Wall Paper Mfrs. Ltd., 188 U.S.P.Q. (BNA) 141, at *3-4
(T.T.A.B. 1975) (“[T]he filing of a fraudulent Section 15
affidavit would enable a registrant to obtain a new
right, namely, incontestability, to which he would not
otherwise be entitled. . . .”). Fraud on the PTO consists
of willfully withholding material information that, if
disclosed, would result in an unfavorable outcome. Id.
at *2. We define “material information” in this context
as “information that a reasonable examiner would
have considered important” when making her decision.
Gilbert/Robinson, Inc. v. Carrie Beverage-Mo., Inc., 989
F.2d 985, 992 (8th Cir. 1993) (applying the Federal Circuit’s patent materiality definition to the trademark
context), abrogated on other grounds by Lexmark Int’l,
Inc. v. Static Control Components, Inc., 572 U.S. 118,
124-25, 134 S.Ct. 1377, 188 L.Ed.2d 392 (2014).
It is undisputed that B&B failed to inform the
PTO of the 2000 jury verdict finding the “Sealtight”
trademark merely descriptive. B&B raises two arguments defending its failure to disclose. It argues first
that the 2000 verdict was not a final adverse decision.
However, in its August 28, 2007 decision refusing to
register Hargis’s “Sealtite” mark, the TTAB, a separate
division of the PTO from that which handles incontestability affidavits, explicitly stated that the 2000 jury
verdict was an adverse decision that extinguished
B&B’s common-law rights in the “Sealtight” name.

App. 11
B&B Hardware, Inc. v. Sealtite Bldg. Fasteners, Opp.
No. 91155687 to App. No. 75129229, 2007 WL 2698310,
at *6 (T.T.A.B. Aug. 28, 2007). We therefore conclude
that the district court did not plainly err in finding that
the 2000 jury verdict was a prior adverse decision.
B&B next argues that its failure to disclose was
not willful because it did not realize the jury verdict
was a final adverse decision and it did not disclose that
verdict based on the advice of counsel. B&B’s owner so
testified at trial. However, the jury was entitled to disbelieve him if it chose. See Willis v. State Farm Fire &
Cas. Co., 219 F.3d 715, 720 (8th Cir. 2000) (“[A] jury is
free to disbelieve any witness, even if the testimony is
uncontradicted or unimpeached.”). Thus, we cannot
say that the district court plainly erred in finding that
B&B acted willfully.
Because we find no plain error in the district
court’s determination that B&B willfully failed to disclose a prior adverse decision, it follows that the district court did not err in its determination that B&B
committed fraud on the PTO and that Hargis was
therefore entitled to the affirmative defense of fraud
under 15 U.S.C. § 1115(b)(1).
III.
We turn now to the district court’s conclusion that
B&B’s claims were barred by collateral estoppel. Finding that B&B failed to present evidence of any significant intervening factual change from the date of the
2000 jury verdict, we affirm.

App. 12
We review the District Court’s legal conclusions
regarding preclusion de novo, Knutson v. City of Fargo,
600 F.3d 992, 995 (8th Cir. 2010), and may affirm on
any basis in the record. Wycoff v. Menke, 773 F.2d 983,
986 (8th Cir. 1985). There are two types of preclusion—
claim preclusion, or res judicata, and issue preclusion,
or collateral estoppel. See Knutson, 600 F.3d at 995.
Claim preclusion “provides that ‘a final judgment on
the merits bars further claims by parties or their privies based on the same cause of action.’ ” Klipsch, Inc. v.
WWR Tech., Inc., 127 F.3d 729, 733 (8th Cir. 1997)
(quoting Montana v. United States, 440 U.S. 147, 153,
99 S.Ct. 970, 59 L.Ed.2d 210 (1979)). Collateral estoppel generally provides that “[w]hen an issue of fact or
law is actually litigated and determined by a valid and
final judgment, and the determination is essential to
the judgment, the determination is conclusive in a subsequent action between the parties, whether on the
same or a different claim.” Hargis VI, 135 S. Ct. at 1303
(alteration in original) (quoting Restatement (Second)
of Judgments § 27, at 250 (1980)); see also Knutson,
600 F.3d at 996. Collateral estoppel, in the Eighth Circuit, has five elements:
(1) the party sought to be precluded in the second suit was a party . . . in the prior suit;
(2) the issue sought to be precluded is the
same as the issue involved in the prior action;
(3) the issue was actually litigated in the prior
action; (4) the issue was determined by a valid
and final judgment; and (5) the determination

App. 13
in the prior action was essential to the judgment.
Morse v. Comm’r of Internal Revenue Serv., 419 F.3d
829, 834 (8th Cir. 2005) (internal quotation marks
omitted).
In Hargis III, we identified incontestability as
“a significant intervening factual change” precluding
application of collateral estoppel. 569 F.3d at 388. In
other words, obtaining incontestability allowed B&B to
escape the preclusive effects of the 2000 jury’s finding
that “Sealtight” lacked secondary meaning. Secondary
meaning is part of validity; a descriptive trademark
that lacks secondary meaning is not protectible. Schwan’s
IP, LLC v. Kraft Pizza Co., 460 F.3d 971, 974 (8th Cir.
2006) (stating that a descriptive mark is only protectible if it is “so associated with the product that it becomes a designation of the source rather than of a
characteristic of the product”—thus, if it has acquired
secondary meaning). However, incontestability entitles
a trademark owner to a presumption that “it has a
valid, protectible mark and there is a likelihood of confusion between its mark and the defendant’s mark.” Id.
at 389. Thus, when B&B obtained incontestability for
“Sealtight,” its factual circumstances changed because,
unlike at the 2000 trial, it could rely on a presumption
that “Sealtight” carried a secondary meaning.
Once Hargis proved its affirmative defense of fraud
in this case, B&B lost the benefits of incontestability,
including the presumption of validity. See 15 U.S.C.
§ 1115(b); Hargis III, 569 F.3d at 389. The district court

App. 14
found that, without incontestability, B&B was in the
same situation as it was at the 2000 jury trial because
it failed to plead any other intervening change in transactional facts. See Test Masters Educ. Servs., Inc. v.
Singh, 428 F.3d 559, 572-75 (5th Cir. 2005) (“In [a prior
case], the critical issue before the court was whether
[plaintiff ’s] trademark had acquired secondary meaning. In the present case, [plaintiff ] is requesting protection against unfair competition, infringement, and
false and deceptive advertising, based on his central
argument that his . . . mark has now acquired secondary meaning. The issues of law in both cases are incontrovertibly identical. . . .” (footnote omitted)); see also
id. at 575 (“The thrust of our holding is that [plaintiff ]
has not alleged in his pleadings any significant intervening factual change.”). Therefore, the district court
held that collateral estoppel mandated judgment for
Hargis. See B&B Hardware, Inc. v. Hargis Indus., Inc.
(Hargis VIII), No. 4:06-CV-01654 BSM, 2017 WL 957548,
at *4-5 (E.D. Ark. Feb. 16, 2017).
B&B’s sole argument against preclusion on appeal
is that the 2000 district court lacked subject matter
jurisdiction to determine whether “Sealtight” had secondary meaning. It claims that the Lanham Act prevents any review of descriptiveness after the mark has
become incontestable. However, it fails to acknowledge
that its mark was not incontestable in 2000. It also
points out that no governmental body attempted to
cancel the “Sealtight” mark’s registration after the
2000 trial, but it cites no authority implying that this

App. 15
failure indicates the 2000 district court lacked subject
matter jurisdiction.
In any event, we find that the 2000 district court
had jurisdiction to consider the issue of secondary
meaning. B&B does not dispute that, under 28 U.S.C.
§ 1331, the 2000 court had jurisdiction over its trademark infringement claim, which arose under 15 U.S.C.
§ 1114. Given this unrefuted fact, B&B offers nothing
to support its claim that the district court lacked subject matter jurisdiction in that proceeding, and we
therefore reject its contention.
We further agree with the district court that, without incontestability, B&B is collaterally estopped from
pursuing its claims. There is no dispute that B&B was
a party to the 2000 litigation. In Hargis III, we explicitly noted that the 2000 jury verdict considered secondary meaning—the same issue in question here. 569
F.3d at 389. We also noted that the 2000 district court’s
decision—a valid and final judgment—hinged solely on
the jury’s finding that the “Sealtight” mark had no secondary meaning. Id. We thus found there that the elements of collateral estoppel were satisfied as to the
issue of secondary meaning, and we again so conclude.
There, however, we refused to apply collateral estoppel because B&B had shown an intervening factual
change—incontestability—that allowed it to overcome
issue preclusion on secondary meaning. Id. at 388.
There, we referenced with approval the Fifth Circuit’s
decision in Test Masters Educational Services v. Singh,
which concluded that issue preclusion depends not on

App. 16
the passage of time but on whether the plaintiff alleges
“an intervening factual change” in its pleadings. 428
F.3d at 575; Hargis III, 569 F.3d at 388. Here, other
than incontestability and the passage of time, B&B has
failed to allege any intervening factual change that
would allow it to escape the application of collateral
estoppel. Absent any evidence that B&B’s mark has
developed secondary meaning since the 2000 trial, we
decline to allow B&B to relitigate that issue. We thus
uphold the district court’s application of collateral estoppel.
IV.
Because disgorgement under the Lanham Act requires that a plaintiff establish that the defendant has
violated its trademark rights, see 15 U.S.C. § 1117(a),
and because we have concluded that the district court
did not err in finding that B&B’s trademark infringement claims are barred by collateral estoppel, the
district court made no error in declining to order disgorgement of Hargis’s profits.
V.
In its cross-appeal, Hargis argues the district
court improperly denied its motion for fees and costs.
“We review the district court’s decision on whether
to award attorney’s fees under an abuse-of-discretion
standard.” Cmty. of Christ Copyright Corp. v. Devon
Park Restoration Branch of Jesus Christ’s Church, 634
F.3d 1005, 1013 (8th Cir. 2011).

App. 17
Prevailing trademark defendants only receive fees
and costs in exceptional cases. 15 U.S.C. § 1117(a). “An
exceptional case is one in which a plaintiff brought an
action that ‘was groundless, unreasonable, vexatious,
or was pursued in bad faith.’ ” Hartman v. Hallmark
Cards, Inc., 833 F.2d 117, 123 (8th Cir. 1987) (quoting
Hodge Chile Co. v. KNA Food Distribs., Inc., 575
F. Supp. 210, 214 (E.D. Mo. 1983)); see also Sturgis Motorcycle Rally, Inc. v. Rushmore Photo & Gifts, Inc., 908
F.3d 313, 346 (8th Cir. 2018) (“[W]e hold that the district court did not abuse its discretion in finding that
SMRI’s case was not ‘exceptional’ with respect to either
the ‘substantive strength of [its] litigating position’ or
‘the unreasonable manner in which the case was litigated.’ ” (second alteration in original) (quoting Octane
Fitness, LLC v. ICON Health & Fitness, Inc., 572 U.S.
545, 554, 134 S.Ct. 1749, 188 L.Ed.2d 816 (2014))). This
case does not present an example of groundless, unreasonable, or vexatious litigation, as it has arguable
merit on both sides—evidenced by the fact that both
parties have prevailed at various times throughout its
12-year history. We cannot say that B&B pursued litigation in bad faith, as it received a favorable Supreme
Court ruling and reasonably believed it could prevail.
Therefore, the district court did not abuse its discretion
in finding this an unexceptional case, and we affirm its
denial of Hargis’s motion for attorney fees and nontaxable litigation costs.
The judgment of the district court is affirmed.

App. 18
2017 WL 957548
United States District Court,
E.D. Arkansas, Western Division.
B&B HARDWARE, INC, Plaintiff
v.
HARGIS INDUSTRIES, INC., Defendant
CASE NO. 4:06-CV-01654 BSM
|
Signed 02/16/2017
Attorneys and Law Firms
Katrina G. Eash, Natalie L. Arbaugh, Fish & Richardson P.C., Dallas, TX, Roger N. Behle, Jr., Foley Bezek
Behle & Curtis, LLP, Costa Mesa, CA, Barry Clifford
Snyder, Snyder Law, LLP, Santa Barbara, CA, Kenneth
R. Shemin, Shemin Law Firm, PLLC, Rogers, AR, Timothy James Cullen, Cullen & Co., PLLC, Little Rock,
AR, for Plaintiff.
Alexandra H. Bistline, Pirkey Barber PLLC, Austin,
TX, Bruce E. Munson, Munson, Rowlett, Moore &
Boone, P.A., H. William Allen, Allen Law Firm, Little
Rock, AR, Dallas W. Tharpe, Herbert A. Trey Yarbrough, III, Yarbrough Wilcox, PLLC, Tyler, TX, Mary
Helen Wimberly, Hogan Lovells US LLP, Washington,
DC, for Defendant.

App. 19
ORDER
BRIAN S. MILLER, UNITED STATES DISTRICT
JUDGE
Plaintiff B&B Hardware, Inc.’s (“B&B”) motion to
substitute briefs [Doc. No. 447] is granted, and its motion for judgment notwithstanding the verdict and/or
to alter or amend judgment [Doc. No. 446] is denied.
I.

BACKGROUND

This case’s long, protracted history has been previously described and need not be repeated. See, e.g.,
Doc. No. 411 at 1-4 (describing history); B&B Hardware v. Hargis Indus., Inc., 135 S. Ct. 1293, 1301-02
(2015) (same). Suffice it to say that the twenty-plus
year dispute ended in another jury verdict and judgment for defendant Hargis Industries, Inc. (“Hargis”),
the outcome of which B&B argues was faulty for a variety of reasons.
After a five-day trial, a jury found for B&B and
against Hargis on B&B’s claims for federal trademark
infringement, false designation of origin, and unfair
competition. Jury Verdict at 1, Doc. No. 429. The jury
found for Hargis on B&B’s claim of unfair competition
under California law, and for Hargis on its counterclaims for false advertising and false designation. Id.
at 1-2. The jury also found that Hargis’s infringement
was not willful, and that B&B engaged in fraud to obtain incontestability status. Id. at 3. As a result of the
fraud finding, judgment was entered for Hargis on
all claims, and the order directing judgment explained

App. 20
that even if B&B had been successful, it had no remedy. See Doc. Nos. 438, 439.
B&B moves for judgment or to alter the existing
judgment for seven reasons: (1) the jury’s fraud finding
was erroneous; (2) the jury’s finding for Hargis on the
unfair competition claim under California law is factually and legally incorrect; (3) the jury was wrong in
finding none of Hargis’s profits were attributable to infringement; (4) the order finding preclusion because
B&B’s trademark was no longer incontestable was in
error; (5) Hargis is not entitled to judgment on its counterclaims for failing to show damages; (6) B&B should
receive judgment on Hargis’s affirmative defenses;
(7) the analysis finding B&B was entitled to no disgorgement of Hargis’s profits was incorrect. See generally, Doc. No. 447-1. Hargis argues that many of these
issues have been waived because B&B did not properly
raise them at trial or alternatively, that they fail on the
merits. See Doc. No. 455. Although Hargis’s position of
waiver is certainly valid, the issues will also be addressed on the merits below.
II.

LEGAL STANDARD

Admittedly, the standard for reviewing B&B’s motion is complicated by the mixture of jury and court determinations. The parties agreed to submit claims and
certain factual determinations to the jury, whether by
demand or by consent. See Fed. R. Civ. P. 39(a), (c) (jury
may be demanded or by consent); Fed. R. Civ. P. 49(b)
(permitting general verdict with answers to written

App. 21
questions); Am. Compl. 14, Doc. No. 114 (jury demanded); Jury Verdict at 3 (written questions). After
the jury reached a verdict on the parties’ claims and
answered written questions, an appropriate judgment
was entered applying those determinations to the law.
Doc. No. 438 (order directing judgment); Fed. R. Civ. P.
58(b)(2)(A) (court must direct entry of appropriate
judgment after jury returns general verdict with answers to written questions). Therefore, the appropriate
standard of review depends on whether B&B is attacking a jury determination or the subsequent order and
judgment.
When B&B attacks issues decided by the jury,
B&B’s motion is brought under Rule 50, which should
only be granted if the jury’s verdict is utterly lacking
in evidentiary support. In re Prempro Products Liability Litigation, 586 F.3d 547, 572 (8th Cir. 2009). When
evaluating a Rule 50 motion, evidence is construed
most favorably to the prevailing party and all inferences are drawn in its favor, denying the motion “if reasonable persons could differ as to the conclusions to be
drawn from the evidence.” Western American, Inc. v.
Aetna Cas. and Sur. Co., 915 F.2d 1181, 1183 (8th Cir.
1990). Indeed, “where conflicting inferences reasonably can be drawn from evidence, it is the function of the
jury to determine what inference shall be drawn.”
Canny v. Dr. Pepper/Seven-Up Bottling Group, Inc.,
439 F.3d 894, 900 (8th Cir. 2006).
When B&B attacks the final judgment and not a
jury finding, B&B’s motion is brought under Rule 59.
See Fed. R. Civ. P. 54(a) (defining “judgment” as “a

App. 22
decree and any order from which an appeal lies”); Jackson v. Schoemehl, 788 F.2d 1296, 1298 (8th Cir. 1986)
(“[W]here a postjudgment motion is timely filed and
calls into question the correctness of that judgment it
should be treated as a motion under Rule 59(e).” (internal quotations omitted)). Rule 59(e) permits a district court to correct its own mistakes immediately
following entry of judgment. Innovative Health Care,
Inc. v. P.T.-O.T. Assocs., 141 F.3d 1284, 1286 (8th Cir.
1998). The motion “cannot be used to introduce new evidence, tender new legal theories, or raise arguments
which could have been offered or raised prior to entry
of judgment,” id., but rather “serve[s] the limited function of correcting manifest errors of law or fact or to
present newly discovered evidence,” United States v.
Metro. St. Louis Sewer Dist., 440 F.3d 930, 933 (8th Cir.
2006). B&B has only argued for legal errors.
III.

DISCUSSION

A. Fraud Finding
The jury found that B&B committed fraud on the
Patent and Trademark Office (“PTO”), which B&B argues was erroneous because it lacks “legal and/or factual justification.” See Doc. No. 447-1 at 2, 4. The jury
was required to find (1) a material misrepresentation
or the failure to disclose material information (2) made
with the intent to deceive. Instruction No. 19, Doc. No.
430. B&B’s argument is difficult to follow, but it appears
to make a two-fold attack: (a) the jury instruction was
legally wrong and (b) the evidence does not support

App. 23
that the allegedly false declaration was “material” or
that the declarant had an intent to deceive. Neither argument is compelling.
As an initial matter, B&B references a trademark
treatise to explain the fraud claim, as if to suggest that
the jury instruction was wrong. B&B at no point, however, states the instruction was improper, nor could it.
The instruction mirrored the Seventh Circuit’s model
instruction and is supported by case law. See Federal
Civil Jury Instructions of the Seventh Circuit § 13.5.8;
Aromatique, Inc. v. Gold Seal, Inc., 28 F.3d 863, 877-78
(8th Cir. 1994).
B&B’s second argument about the insufficiency of
the evidence is more interesting, but equally unavailing. Hargis’s position at trial was that Larry Bogatz,
B&B’s president, misled the PTO—and thus committed fraud—by signing a declaration in support of his
incontestability petition. That declaration required Bogatz to declare that B&B had not received a final decision on the merits adverse to its claim of ownership of
the trademark that affected its right to register that
mark. See Def. Ex. 69 (declaration of incontestability).
Of course, B&B cannot reasonably dispute that Bogatz’s declaration was false: the 2000 jury verdict
found B&B’s mark to be merely descriptive and devoid
of secondary meaning which, under the law, means the
mark could not be registered. See Two Pesos, Inc. v.
Taco Cabana, Inc., 505 U.S. 763, 769 (1992) (“Section 2
of the Lanham Act provides that a descriptive mark
that otherwise could not be registered under the Act
may be registered if it has become distinctive of the

App. 24
applicant’s goods in commerce. This acquired distinctiveness is generally called ‘secondary meaning.’ ” (internal quotations omitted)). The issue, then, is whether
there was sufficient evidence to suggest this false representation was fraudulent.
B&B focuses its argument on whether (a) the Trademark Trial and Appeal Board (“TTAB”) had knowledge
of the 2000 verdict and thus could not be mislead by
Bogatz’s statement or (b) that Bogatz had no intent to
deceive because he was acting on counsel’s advice. See
Doc. No. 447-1 at 6-7. It is true that the TTAB—an entirely different office than the PTO—referenced the
2000 verdict in its correspondence. See, e.g., Pl.’s Ex. 22.
But the same treatise B&B relies on to explain the law
also explains that the process of filing for incontestability does not include a review of the merits of Bogatz’s declaration. Specifically, “[t]he [PTO] does not
examine the merits of a[n incontestability] affidavit. If
the affidavit is received at a proper time, it is entered
in the [PTO’s] records without regard to its substantive
sufficiency, although it is inspected for facial inconsistencies or omissions.” 5 McCarthy on Trademarks and
Unfair Competition § 19:140 (4th ed.). Therefore, the
TTAB’s reference to the verdict does not mean that the
PTO was aware or that the PTO considered the verdict
and still converted B&B’s mark to incontestable status. See, e.g., Robi v. Five Platters, Inc., 918 F.2d 1439,
1444 (9th Cir. 1990) (omitting information on prior adverse ruling resulted in cancellation of mark for fraudulent activity).

App. 25
B&B’s argument that reliance on legal counsel
precludes a fraudulent intent finding ignores other circumstances upon which the jury could find an intent to
deceive. The jury was free to reject Bogatz’s testimony
about his intent and reliance on counsel. See Willis v.
State Farm Fire and Cas. Co., 219 F.3d 715, 720 (8th
Cir. 2000) (“[A] jury is free to disbelieve any witness,
even if the testimony is uncontradicted or unimpeached.”). That is especially true in situations where,
as is the case here, the jury was permitted to draw a
reasonable inference of intent considering the timing
of the declaration occurring mere weeks before filing
a new lawsuit, the witnesses’ testimony about their
interactions in the past, and Bogatz’s admitted knowledge of the 2000 jury’s findings. See Robi, 918 F.2d at
1444 (affiant’s knowledge of an adverse decision permits finding of fraudulent intent); e.g., Orient Express
Trading Co. v. Federated Dep’t Stores, Inc., 842 F.2d
650, 653-54 (2d Cir. 1988) (considering totality of circumstances to determine elements of fraud).
It appears B&B did not raise this argument in a
motion for a judgment as a matter of law under Rule
59(a). Nevertheless, B&B has not shown that it is entitled to post-judgment relief because the jury’s verdict
has “a legally sufficient evidentiary basis” to find for
Hargis on those issues. See Fed. R. Civ. P. 50(b)(3) (permitting entry of judgment as a matter of law); Fed. R.
Civ. P. 50(a)(1) (judgment as a matter of law asks if
court finds a reasonable jury would have a sufficient
basis for verdict).

App. 26
B. Unfair Competition Claim
B&B next argues that an inconsistent verdict
must be corrected because the jury found for B&B on
the trademark infringement and false designation of
origin claim, which means that it “must” also find for
B&B on the unfair competition claim under California
law. This claim required the jury to find (1) Hargis engaged in unlawful business practices in California and
(2) B&B was damaged or harmed. Instruction No. 13.
Notably, B&B does not argue that this instruction was
invalid, thus the only issue is whether the verdict was
inconsistent or B&B is otherwise entitled to judgment
notwithstanding the verdict.
As Hargis correctly points out, B&B waived this
“inconsistent verdict” argument by failing to raise the
objection before the jury was discharged. Yazdianpour
v. Safeblood Techs., Inc., 779 F.3d 530, 538 (8th Cir.
2015). Even if B&B had raised the issue, the verdict
was not inconsistent. Assuming B&B is still entitle
to judgment on the Lanham Act claims—which, as described throughout this order, is not the case—then
B&B met the first element requiring business activity
that “violated state or federal law.” Although B&B’s
brief [Doc. No. 447-1] and reply brief [Doc. No. 459]
spend considerable time emphasizing Hargis’s business practices in California, B&B points to no evidence
that it was harmed by this activity, as required by the
second element. Even if it had, the jury was free to accept that Hargis conducted business in California, that
infringement occurred, but that B&B was not harmed
or did not suffer damages.

App. 27
Finally, it is worth noting that B&B incorrectly recites the law in its reply brief. B&B states that the jury
instruction instructs the jury that if it found unfair
business practices to have occurred [i.e., Hargis committed trademark infringement], then the jury “must
find in favor of B&B.” Doc. No. 459 at 6 (emphasis in
original). This is inaccurate. This “must” instruction
does not appear in instruction number 13—the “unfair
competition under California law” instruction—but appears in instruction number 12—the “unfair competition under federal law” instruction. This could explain
B&B’s position that the jury had to find for it on both
unfair competition claims. The instruction, however, is
clear that the California claim includes the extra element of damages.
Accordingly, the motion is denied because there
is no inconsistency and no reason to direct judgment
in B&B’s favor on the unfair competition claim under
California law.
C. Lost Profits
B&B argues there was insufficient evidence to
support the jury’s finding that none of Hargis’s profits
were attributable to Hargis’s infringement. See Doc.
No. 447-1 at 13-15. Hargis argues B&B is precluded
from advancing this argument because the jury received B&B’s proposed jury instruction describing the
law, or alternatively, that there was more than enough
evidence to permit the jury to find that Hargis’s profits

App. 28
were attributable to factors other than using a specific
mark. See Doc. No. 455 at 14-15.
Regardless of whether B&B can properly raise the
argument, the point is not compelling. The jury was required to determine the amount of Hargis’s profits “attributable to the infringement[.]” Instruction No. 16.
The jury’s starting point was Hargis’s total profit; then,
the jury could deduct all or a part of profit “attributable
to factors other than use of the trademark.” Id.
B&B argues that the expert witnesses “essentially
agreed” on Hargis’s profits, but that “Hargis made no
effort to prove that any of those profits came from anything other than its Sealtite products . . . There is
simply no evidence in the record to quantify any dollar
amount of Hargis profits that are not attributable to
the Sealtite mark without sheer speculation.” Doc. No.
447-1 at 14.
The problem with B&B’s position is that it presupposes some of Hargis’s profits were attributable to infringement, when Hargis’s position was that it did not
infringe, and thus none of its profits are attributable
to infringement. Indeed, Hargis presented testimony
from several of its customers to explain that the customers’ motivation for purchasing Hargis products
was not connected with the Sealtite name—thus, not
connected with the allegedly infringing trademark—
but rather other characteristics such as customer service experience and quality of product. There was evidence to support the conclusion that none of Hargis’s
profits were attributable to infringement and the jury

App. 29
accepted it. See White v. Pence, 961 F.2d 776, 780-81
(8th Cir. 1992) (recognizing juries can draw difference
conclusions and judge should not usurp the jury’s function simply because another conclusion was possible).
Accordingly, the motion is denied because the evidence supports the jury’s finding.
D. Preclusion for Incontestability
B&B next attacks the post-trial order holding that
collateral estoppel barred the action after the jury
found that B&B committed fraud on the PTO. By way
of background, a trademark infringement claim requires (1) a valid, protectible mark and (2) a likelihood
of confusion between plaintiff and defendant’s marks.
B&B Hardware, Inc. v. Hargis Indus., 569 F.3d 383, 389
(8th Cir. 2009). To demonstrate a mark is valid and protectible (first element), B&B must establish, in the
case of a descriptive mark, that its mark had acquired
a secondary meaning. Id. In 2000, however, a jury
found that B&B’s mark was descriptive and had not
acquired a secondary meaning. Jury Verdict, B&B
Hardware, Inc. v. Hargis Indus., Inc., Case No. 4:98-CV00372 (E.D. Ark. May 12, 2000), Doc. No. 68. Consequently, the mark was not entitled to protection, and
thus there was no need to determine whether B&B met
the second element of likelihood of confusion. B&B
Hardware, 569 F.3d at 389.
When B&B filed this present lawsuit and alleged
trademark infringement (again), B&B alleged new circumstances, namely that its trademark had become

App. 30
incontestable. Id. Incontestability prohibits Hargis
from arguing that the mark was merely descriptive; essentially, B&B is given a “pass” on the first element—
the element that doomed its prior case—and allows a
jury to consider the second. Id. Indeed, this incontestability status was the “significant intervening factual
change” that rendered collateral estoppel inappropriate. Id. at 388.
The problem now is that the jury determined B&B
committed fraud on the PTO when B&B acquired incontestable status, which under federal law, removes
the benefits of incontestability. Fraud removes the conclusiveness of protectibility and downgrades the status
of the mark to the same status it had prior to incontestability—i.e., the same status it had when the jury
rendered its verdict in 2000. Park n’ Fly, Inc. v. Dollar
Park & Fly, 469 U.S. 189, 196 (1985); Dakota Indus. v.
Bever Best Ltd., 28 F.3d 910, 912-13 (8th Cir. 1994).
Without incontestability, B&B no longer had that “significant intervening factual change” that was presumed true when the Eighth Circuit remanded to
permit B&B to have another bite at the proverbial apple. See B&B Hardware, 59 F.3d at 388.
B&B argues this is a manifest error of law because
the TTAB did not apply issue preclusion in its own proceedings. See Doc. No. 447-1 at 16-17. It is unclear
whether B&B is arguing that the fraud finding is
wrong—which, as explained above, is not the case—or
whether the analysis and application of collateral estoppel is incorrect. It is also unclear how the TTAB’s
decision has any impact on whether the present civil

App. 31
action in federal court is barred when the 2000 verdict
and the present case both fail on the first element of
infringement: protectibility. Nevertheless, after scrutinizing the prior decision, there appears to be no manifest error of law necessitating modification.
Accordingly, B&B has not pointed to any error in
law that would not bar it from bringing this action, and
thus the judgment for Hargis stands.
E. Hargis’s Counterclaims
As B&B correctly observes, judgment was entered
for Hargis “on all claims,” Doc. No. 439, which includes
Hargis’s counterclaims. B&B argues Hargis was not
entitled to judgment as a matter of law because “Hargis failed to present any evidence of damages,” Doc. No.
447-1 at 18, though this argument is expanded to challenge whether evidence supported multiple elements
in the relevant claims, see, e.g., id. at 19 (“Hargis failed
to present any testimony regarding elements 2, 3, and
4 of this claim.”).
As an initial matter, money damages were not necessary, but only that Hargis was “injured” or “is or
is likely to be damaged.” See Doc. No. 447-1 at 18-19
(quoting jury instructions); cf. 5 McCarthy on Trademarks and Unfair Competition § 30:2 (4th ed.) (“In
trademark cases, it is not necessary for plaintiff to
prove actual damage or injury to state a prima facie
case of infringement. Injunctive relief does not require
injury be proven.”); Sweetarts v. Sunline, Inc., 380 F.2d
923, 927 (8th Cir. 1967) (In infringement actions,

App. 32
plaintiff need not show actual confusion “[n]or need
plaintiff show actual or possible monetary injury.”).
This is especially true in cases where, as is the case
here, Hargis was not seeking monetary damages. The
treatise B&B relies on states this explicitly: “Injunctive relief does not require that injury be proven. In
effect, injury to the trademark owner is presumed.”
5 McCarthy on Trademarks and Unfair Competition
§ 30:10 (4th ed.).
Even if B&B were correct, there was evidence for
the jury to infer injury and damages. Based on the verdict, it is clear the jury accepted Hargis’s argument
that B&B copied photos, text, or size and weight charts
from Hargis’s website and posted them to B&B’s website as B&B’s fasteners. See Instruction No. 17(1). Assuming this is true, Hallmark Cards, Inc. v. Monitor
Clipper Partners, LLC, 758 F.3d 1051, 1056 (8th Cir.
2014) (viewing evidence in the light most favorable to
prevailing party), Hargis suffered injury when it had
to engage experts and combat B&B’s activity. See Doc.
No. 455 at 19 (recounting testimony and use of experts
and counsel to respond to website); Nat’l Fed’n of the
Blind v. Loompanics Entersp., 936 F. Supp. 1232, 124546 (D. Md. 1996) (“[A] plaintiff does not have to await
the consummation of threatened injury to obtain preventative relief ” under the Lanham Act.); 15 U.S.C.
§ 1116 (authorizing injunctive relief “to prevent the violation” of the registrant of a mark). To the extent B&B
is extending this argument to include other elements,
that attempt also fails because there was sufficient

App. 33
evidence in the record to find the other elements were
met.
Accordingly, B&B’s argument is without merit and
the motion is denied.
F. Affirmative Defenses
B&B argues that it is entitled to judgment on Hargis’s affirmative defenses (unclean hands, estoppel,
laches, and acquiescence) “to the extent that those defenses made up any part of the court’s reasoning in
how it applied the equities.” Doc. No. 447-1 at 21. As
Hargis correctly identifies (and B&B concedes), the equitable defenses were not sent to the jury and were
never analyzed in the order discussing disgorgement.
See Doc. No. 455 at 21; Doc. No. 447-1 at 21 (B&B stating that “[t]he court’s order does not mention any specific reliance or findings on those defenses.”). The order
denying Hargis’s motion for judgment required Hargis
to “move for judgment on the basis of [the] defenses
after an adverse finding of liability at trial.” Doc. No.
411. Hargis made no such motion, and thus the affirmative defenses have never been considered. Accordingly, the motion is denied.
G. Disgorgement of Profits
Finally, B&B argues that the order deciding that
it was not entitled to disgorgement was in error because: (a) contrary to the jury’s finding, it presented
“overwhelming evidence of willful infringement”; (b) it

App. 34
was entitled to money damages as a matter of law; and
(c) considering whether B&B lost sales as a result of
Hargis’s actions is contrary to law. See Doc. No. 447-1
at 25-26, 29.
First, B&B argues there was overwhelming evidence of intentional infringement to suggest the jury’s
finding to the contrary was erroneous. Of course, B&B’s
failure to raise this point prior to submission to the
jury waives the argument now. See Fed. R. Civ. P. 50(b);
Pulla v. Amoco Oil Co., 72 F.3d 648, 655 (8th Cir. 1995).
Notwithstanding that obstacle, B&B’s position also
fails on the merits. Willful infringement means that
(a) Hargis knew it was infringing on B&B’s mark or
(b) acted with indifference toward B&B’s rights. Instruction No. 20. Although it is clear that Hargis had,
at the very least, constructive notice of B&B’s registration, willfulness can require more than knowledge of
registration. See, e.g., Kemin Foods, L.C. v. Pigmentos
Vegetales Del Centro S.A. de C.V., 357 F. Supp. 2d 1105,
1129 (S.D. Iowa 2005) (citing factors to consider); 3M v.
Johnson & Johnson Orthpaedics, Inc., 976 F.2d 1559,
1581 (Fed. Cir. 1992) (“When determining whether infringing conduct warrants a finding of willfulness the
court must examine the totality of the circumstances
of the case.”). Although B&B presents several circumstances to suggest Hargis willfully infringed, there was
also evidence, such as the ongoing litigation repeatedly
finding no infringement and the fact that the two companies engaged in different markets, to suggest unintentional conduct. Appropriately, then, the issue was
submitted to the jury and the jury’s determination

App. 35
need not be disturbed. See Cass Cty. Music Co. v.
C.H.L.R., Inc., 88 F.3d 635, 644 n.7 (8th Cir. 1996) (“[I]t
necessarily follows that the willful or innocent nature
of the infringement . . . would be [a] jury question[.]”).
B&B is correct that the order denying Hargis’s motion for judgment presumed willfulness. See Doc. No.
447-1 (“Again, the Court’s order denying summary
judgment . . . [found] knowledge of B&B’s registration,
and thus B&B’s right of exclusive ownership . . . [to]
create a jury question on whether Hargis willfully infringed on B&B’s mark.”); Doc. No. 411 at 14. Of course,
this assumption must be kept in the context of those
pending motions, the resolution of which assumes
certain inferences to be true and gave B&B, the nonmovant, the benefit of the doubt. See Holland v. Sam’s
Club, 487 F.3d 641, 643 (8th Cir. 2007). Although it is
true that Masters v. UHS of Delaware, Inc., 631 F.3d
464 (8th Cir. 2011), found that knowledge of a violation
creates an inference of willfulness, id. at 471-72, this
merely presents the jury with an alternative inference
that it was free to accept or reject. See Canny, 439 F.3d
at 900 (“where conflicting inference reasonably can be
drawn from evidence, it is the function of the jury to
determine what inference shall be drawn”).
Second, B&B claims it was automatically entitled
to a disgorgement of some amount of profits by proving
a Lanham Act violation. Before B&B can advance this
argument, it must have succeeded on an infringement
claim, which as discussed above, B&B is precluded
from advancing. Nonetheless, the argument fails because the Lanham Act explicitly makes disgorgement

App. 36
discretionary: “[Upon a finding of infringement,] the
plaintiff shall be entitled . . . subject to the principles of
equity” to recover profits. 15 U.S.C. § 1117(a) (emphasis
added); Masters, 631 F.3d at 474-75 (“Under 15 U.S.C.
§ 1117(a), the district court has discretion to award
monetary relief itself or to increase or decrease the
jury’s award of profits.” (emphasis added)).
Finally, B&B argues the disgorgement analysis
was improper because considering whether B&B lost
sales due to Hargis’s infringement was improper. See
Doc. No. 447-1 at 29-30. It is true that evidence of
B&B’s lost sales was considered in the analysis. See,
e.g., id. at 5. This was not dispositive, however, and
was included in balancing many factors to determine
whether equity favored disgorging Hargis of any of its
profits. See Doc. No. 438 at 4-5 (noting “whether sales
have been diverted” is one of several factors considered
by the Third, Fourth, and Fifth Circuits). If B&B’s lost
sales could never be considered, disgorgement could
only stand as a penalty, which undermines B&B’s unjust enrichment theory and the purpose of disgorgement in infringement cases. See Doc. No. 447-1 at 30
(B&B’s status report stating it was seeking an award
of “Hargis’s profits for its unjust enrichment”); Masters, 631 F.3d at 474 (monetary relief must be “compensatory, not a penalty.”).
Accordingly, the motion is denied because B&B
has not shown that any manifest error occurred to
modify the judgment.

App. 37
IV.

CONCLUSION

For the reasons set forth above, B&B’s motion for
judgment notwithstanding the verdict and/or to alter
judgment [Doc. No. 446] is denied. B&B’s motion to
substitute briefs [Doc. No. 447] is granted, and its
amended brief [Doc. No. 447-1] was considered.
IT IS SO ORDERED this 16th day of February
2017.

App. 38
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 17-1570
B&B Hardware, Inc., a California Corporation
Appellant
v.
Hargis Industries, Inc., a Texas Corporation,
doing business as East Texas Fasteners, doing
business as Sealtite Building Fasteners
Appellee
East Texas Fasteners, a business entity of form
unknown and Does, 1 through 10, inclusive
No: 17-1755
B&B Hardware, Inc., a California Corporation
Appellee
v.
Hargis Industries, Inc., a Texas Corporation,
doing business as East Texas Fasteners, doing
business as Sealtite Building Fasteners
Appellant
East Texas Fasteners, a business entity of form
unknown and Does, 1 through 10, inclusive
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

Appeal from U.S. District Court for the
Eastern District of Arkansas - Little Rock
(4:06-cv-01654-BSM)
(4:06-cv-01654-BSM)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

App. 39
ORDER
The petition for rehearing en banc is denied in 171570. The petition for rehearing by the panel is also
denied in 17-1570.
February 06, 2019
Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

